ACCREDITATION    OF PUBLIC CHILD WELFARE         AGENCIES




                       Prepared by

                  Office of Inspector General

             Office of Evaluation and Inspections

       U.S. Department of Health and Human Services



                        March 1994



                     OEI-O4-94-OOO1O

  PURPOSE

  To describe the accreditation process and possible implications of accreditation   for
  public sector child welfare agencies.

  BACKGROUND

 This is a companion memo report to an OIG report on oversight of State Child
 Welfare Programs (OEI-01-92-O0770). That report suggested that the Administration
 for Children and Families (ACF) find new ways to work with States to make program
 improvements and solve problems. One option we suggested was to require State
 child welfare agencies to be accredited, using accreditation bodies overseen by the
 ACF. This memo report is intended to supplement that report and provide more
 detailed information on the accreditation of child welfare agencies in general.

  TheAccraiiiwion Process

 Accreditation is a voluntary review process in which outside observers - peer reviewers
 who are trained, experienced professionals - survey and assess an agency’s total
 operation using recognized criteria in the field.

 Accreditation differs from licensing. Licensing is mandatory for private organizations,
 and is not a peer-review process. Accreditation goes beyond the requirements of State
 licensing, which normally establishes service “minimums.” According to the Council on
 Accreditation of Sewices for Families and Children (Council), accreditation establishes
 a provider as a deliverer of “quality” service. While a licensing process generally
 occurs annually, accreditation reviews occur less frequently, e.g., every four years.
 Government-run child welfare agencies are not required to be licensed or accredited.

  Accreditation of child welfare agencies, both public and private, has been performed
  since 1977 by the Council. The Council was created to establish an independent,
  objective process of agency review in the field of mental health and human services.
  The Council establishes requirements for accreditation that include standards which
  address all aspects of any agency’s administration, organization, and program. The
~ requirements are established through a process of consensus building in the field.

 As of November 1993, the Council had accredited 26 public agencies, of which 25
 were American and 1 was Canadian. Two of the accredited public agencies are State
 child welfare agencies, the South Carolina Department of Social Services, Office of
 Children, Family and Adult Semites, and the Oklahoma Department of Human
 Services, Children’s Services Unit.




                                              2

The Council on Accruihtion

A grant from the U. S. Department of Health, Education and Welfare for $330,000
helped finance the founding of the Council. Since then, however, the Council has
been essentially a private sector organization and is now supported by seven national,
private sponsors. Thesponsoring organizations are:

o      Association of Jewish Family and Children’s Agencies

o      Catholic Charities USA

o      Child Welfare League of America

o      Family Service America

o      Lutheran Social Ministry System

o      National Committee for Adoption

o      National Association of Homes and Services for Children

METHODOLOGY

The information presented in this memo report was obtained through a literature
review and interviews with recognized experts in the field of child welfare. Experts
interviewed represented the following organizations:

o      Administration for Children and Families, HHS

0      Council on Accreditation

0      University of Iowa

0      Child Welfare League of America

0      American Humane Association

0      National Governors Association

0      American Bar Association

0      Annie E. Casey Foundation

0      Child Welfare Institute

0      Youth Law Center, San Francisco

0      Edna McConnel Clark Foundation

0      American Public Welfare Association (APWA)

0      Child Protective Services, State of Georgia

0      Office of the Assistant Secretary for Planning and Evaluation, HHS

0      Families First, a private child welfare agency

0      Adoption Services, Department of Family and Children Services, Fulton

       County, GA
0      Prevention of Unnecessa~ Placements Program, State of Georgia

                                           3
Interviews with these experts addressed the process of accreditation per se, its effects,
and/or the impact of accreditation on outcomes of child welfare cases.

FINDINGS

l%e Council On Accre.dikztion
                            h Btwntly 1%.eOn/y AccreditingBody For Child Weljare
& encies

Any child welfare agency seeking accreditation must meet the Council’s standards and
pay their established fee for an accreditation review.

AccreditationIs A DemandingAnd D@ded Rmxss

An agency must apply to the Council for an accreditation  review. After the
application has been approved, the Council determines the time necessa~ for and the
scope of the review. The accreditation process perfornied by the Council is comprised
of the seven steps listed below.

1.	    The agency seeking accreditation   conducts a self study, using guidelines
       supplied by the Council.

2.	    A team of Council peer reviewers conducts an on-site review lasting at least
       tsvo days, resulting in a report of compliance with the standards.

3.     The agency prepares a response to the report.

4.	    A specialized Council committee considers the agency’s response and makes a
       recommendation to the Council’s trustees.

5.	    The trustees act upon the recommendation by approving or denying
       accreditation or deferring a decision pending remedial action.

6.	    Upon approval, the Council publishes the agency’s name and notifies relevant
       individuals and organizations in the community of the approval.

7.	    The agency conducts a yearly review, based on the same standards used in the
       original re~ew, and transmits the review material to the Council.

The entire review process must be repeated every four years.

Public sector agencies and private agencies holding all applicable State and local
licenses that have been in operation for at least one year, delivering services in one or
more of the areas included in the Council’s standards, are eligible to apply for
accreditation. The “Standards for Agency Management and Service Delive~” are
divided into three broad categories:

                                             4
o      Generic Organizational   Standards

o      Generic Service Delivery Standards

o      Specialized Service Standards

~eNocategoties      ofgenetic standards apply to all organizations. The specialized
service standards set forth additional requirements for each specific service area.

In each of the three broad categories of standards there are three levels. At the
primary level is a general statement summarizing the requirement of the standard. At
the secondary and tertiary levels, the standards detail in increasing specificity how that
requirement is to be met. A list of the titles of the primary level standards and some
examples of secondary and tertiary standards are provided in Appendix A.

At the primary level there are 38 standards in all three-categories combined. At the
tertiary level there are more than 1,000 standards in all three categories combined.
However, an organization would not have to meet all 1,000 tertiary standards to be
accredited. An organization would have to meet all of the standards in the two
generic categories, and the specialized standards for just its particular service area.
For example, an agency providing day care services for the aging would have to meet
all generic standards and 14 service-specific standards. An agency providing adoption
semices would have to meet all generic standards and 51 sefice-specific standards.

OpinionsVa~ On The Effecfi OfAccreditationFor R.dlic Child We~areAgencks

The vast majority of accredited agencies are in the private sector.Approximately 604
agencies are currently accredited by the Council. As of November 1993, only 25 of
those (4 percent) were in the public sector in the United States. One additional
public sector agency was accredited in Canada.

The Council’s literature states certain benefits derived from accreditation.   Those
benefits are as follows.

o	     Assurance to clients, the public, funding bodies, governmental agencies, other
       professionals and agency volunteers that an agency meets rigorous standards.
       Further, accreditation demonstrates that an agency

              has effective management,

              is fiscally sound,

              designs programs to meet community needs,

              continually monitors and evaluates service quality,

              has qualified personnel, and

              has safe, accessible facilities.




                                             5

o	    A declaration that an agency cares deeply about its reputation as a provider of
      quality services and wants others to know of that achievement.

Of the experts we interviewed, one believed that accreditation per se had an effect on
quality of semices. That individual stated that accreditation has a positive effect on
quality, but said that the effect was hard to measure.

On the other hand, most of the other experts we interviewed regarding the effects of
accreditation raised questions about the benefits of accreditation for public agencies or
expressed concern that the effect of accreditation on case outcomes could not be
determined. They contended that accreditation makes no difference in how an agency
performs. Some claimed that accreditation is sought primarily by organizations which
have been successful and are performing well. Further, most of these experts agreed
that accreditation does not guarantee positive outcomes in any child welfare case.
Accreditation is more appealing to the private sector, they said, because it improves
their chances of obtaining funding from organizations such as United Way.

CwTentAccreditationStandkrak
                           MightBe More Stringentl%an i%ose Used@ Pidilc
Child We@re Agencies

The Council’s accreditation standards are possibly more stringent than those of some
State merit systems, particularly those that govern public child welfare agencies’
personnel policies and procedures. The Director of the Council stated that he
believes there is a reluctance on the part of public agencies to seek accreditation
because of a general fear that they cannot meet the standards, especially those
regarding qualifications of their staff. To illustrate, the Council’s personnel standards
require that the head of each program have an advanced degree in a field such as
social work education, another mental health discipline, medicine, nursing, family life,
early childhood education, geriatrics, or another human service field. However, some
State merit systems may allow a person to head up a program based on a combination
of their education and experience. Where there are significant differences between
State and Council education requirements, an agency might not be able to obtain
accreditation without restructuring the State merit system.

Likewise, the Council’s standards for quality assurance might be difficult for most
public child welfare agencies to meet. To illustrate, the Council’s standards require a
quarterly internal review to assure, among other factors, the quality of case outcomes.
The standards do not, however, specify how to measure outcomes.

Experts we intetiewed stated that there is presently no consensus in the child welfare
field regarding how to measure outcomes. They said that measuring outcomes is
currently more art than science, and that there is no single common core of outcome
measures in the field. Requiring accreditation would necessitate all public child
welfare agencies to devise methods for measuring outcomes to meet the Council’s
standards, or the Department to develop and mandate standardized measures.

                                             6
An Accrdikztion Revkw Generdy Cash Atnind $5,(XM

The fee for accreditation is calculated from a fee schedule. According to a Council

official, accreditation generally costs around $5,000 per “organizational unit.” The

review must be conducted every four years.


The Council’s policy on what is a distinct organizational unit is not precise, however.

It states that the organizational unit seeking accreditation must demonstrate that it is

autonomous and independent. Autonomy and independence are established by a unit

having “significant influence” over the establishment of policy, independent

management, budgetary control, an appearance of autonomy, and/or a separate

geographic identity.


How an accrediting organization would define a State child welfare system would

determine how much an accreditation review would cost in any given State. To

illustrate, all State child welfare agencies are organized differently. Some are divided

administratively into State, county, area, field or district components. As a result, it is

possible to have over one hundred individual organizations in a State that would need

to be accredited under the present system, each at a cost of approximately $5,000 per

organization every four years. With the data currently available, we are unable to

estimate with any precision the cost to accredit all public child welfare agencies

nationwide.





                                              7

CONCLUSION

At this time, no one has sufficient information to ascertain fully the benefits of and
barriers to accreditation for public child welfare agencies. Accreditation might be a
valuable mechanism for improving the performance of State child welfare agencies;
however, the barriers to accreditation for public child welfare agencies should be
weighed against the benefits.

PoNJibi2?
       Ben@is

Mandato~ accreditation    for public child welfare agencies could possibly accomplish
the following.

o	     Require public child welfare agencies which are presently operating below
       accreditation standards to make changes to meet those standards.

o	     Provide public child welfare agencies with an explicit set of resource
       requirements. Such information would enable State legislatures to better
       determine costs and decide on an appropriate level of support.

o	     Necessitate development of outcome measures in all public child welfare
       agencies which do not currently have them.

Passibk Banim

Requiring State child welfare agencies to become accredited could potentially meet
with some barriers, such as the following.

o	     Create conflicts or discrepancies between personnel standards and State merit
       systems, requiring modifications in State merit systems.

o	     Require State agencies to develop outcome measures to meet all quality
       assurance standards for accreditation, or require the Department to develop
       standardized measures which all public child welfare agencies would have to
       use.

o	     Cause States or the Department to incur a considerable expense for
       accreditation reviews of all child welfare agencies nationwide, based on current
       fees.

o	     Failure to support public child welfare agencies might cause loss of
       accreditation. A loss of accreditation and failure to pass an accreditation
       review might increase vulnerability to lawsuits.
Iswes Re@ikg    Fmher Study

Prior to making a commitment to accreditation, more information, both pro and con,
is needed. Areas of concern which need to be addressed follow.

o	    Does accreditation as presently performed by the Council lend itself to public
      sector child welfare agencies.

o	    What benefits or barriers have been experienced by the 25 public sector
      agencies in the United States which already have obtained accreditation.

o	    Would it be desirable for each State to develop its own outcome measures, if
      accreditation were mandatory.

o	    How would accreditation relate to reviews of public child welfare agencies
      currently conducted by States or the Department.

o	    Would it be worthwhile or preferable to encourage another organization
      besides the Council to perform accreditation of child welfare agencies.

o	    To what extent would State child welfare agencies require accreditation     of
      private agencies with which they contract for child welfare services.

ACF can obtain needed information and begin to resolve these issues by

o	     analyzing the benefits of accreditation for those public sector child welfare
       agencies which already have obtained it,

o      evaluating possible barriers to accreditation, and

o	     developing a consensus on appropriate outcome measures for child welfare
       cases which would satisfy both public and private advocacy organizations. The
       Council has expressed an interest in collaborating with the Department in
       developing outcome measures in any of the areas of service they accredit,
       including child welfare.




                                             9

                              APPENDIX                  A


                          Titlesfor Primary Level Standards
                   and Examples of Secondaryand Tertiary Standards



This list contains the headings for the 38 primary level standards. Some examples of
secondary and tertiary level standards follow the prima~ headings, and a complete list
may be found in the Council’s publication, “Standards for Agency Management and
Service Delivery.”

GENERIC 0RGANlZA770N&              ST~ARDS

o      The Agency in the Community

o      Agency Governance      and Administration

o      Personnel

o      Quality Assurance

o      Fiscal Management

o      Facilities and Equipment

GENER?C SERVICE DELIVERY ST~b4.RDS

o      Intake and Assessment

o      Service Planning

o      Implementation     of the Service Plan, Termination   and Aftercare

o      Client Information and Confidentiality

SPECL4LIZED SERl?lCE ST~ARDS

o      Community Organization Service/Social Advocacy Service

o	     Information and Referral Service; Crisis Intervention Service; Emergency
       Telephone Response System

o	     Emergency Shelter Service for Abused and Neglected Children; Emergency
       Shelter Service for Homeless Individuals and Families



                                            A-1

o      Foster or Group Care for Unaccompanied      Minor Entrants or Refugees

o      Group Home Service; Residential Center Service for Children and Youth

o      Residential Treatment

o      Pregnancy Counseling and Supportive Sexvice

o      Adoption Service

o      Independent   Living Service for Youth

EXAMPLES        OF SECONDARY      LEVEL STANDARDS

Each of the 38 primary standards have a set of secondary level standards. To

illustrate, the fourth primary standard above is quality assurance. The secondary level

standards for quality assurance are                       .


Management

Information

System:              The agency maintains information necessary to plan, manage, and

                     evaluate its programs effectively.

Planning and
Evaluation:	         The agency determines whether the agency’s services are needed
                     and evaluates the effectiveness and efficiency of the agency in
                     achieving its purposes and/or mission.

Quality

Assurance

Program:             The agency has a quality assurance program to assure that

                     individual client semices meet the agency’s expectations as to
                     sem-ice quality and outcomes.

Remediation:	        Action is taken to eliminate or ameliorate problems identified in
                     program evaluation and in review of the quality of individual
                     client services, including, as appropriate:

                     o      Revision of policies and/or operational   procedures;

                     o	     Changes in personnel assignments, personnel supemision,
                            or in-service training and

                     o      Modification, addition or deletion of a program or service.




                                         A-3

                                                 .



Client

Protections

in Research:         When an agent participates in human subject research, the agency

                     exhibits due regard for client privacy and the right of the client to
                     participate on a voluntary basis.


EXAMPLES       OF TERTIARY     LEVEL STANDARDS

Each seconda~ level standard has a set of tertiary level standards. For example, the
following tertiary level standards are established for the secondary standard “Quality
Assurance Program.”,

Written Plan or
Outline:             The overall scope of the quality assurance program is described in
                     a written plan or outline which sets forth:

                     o	     mechanisms, committees, or other means of assigning
                            responsibility for carrying out and coordinating quality
                            assurance activities;
                     o      objectives and scope of the activity;
                     o      methods of monitoring used;
                     o      reporting of results; and
                     o      follow-up mechanisms.

Quarterly Internal
Review:	             On a quarterly basis, agency management, designated supervisory
                     personnel, or a peer team conducts an internal review of
                     randomly selected open cases for the quality of the client
                     assessments, case or service planning, services provided or
                     obtained, outcomes, and aftercare planning.

Written Criteria:	   The agency has established written criteria, such as thresholds,
                     benchmarks, or timeliness, which trigger further review or
                     evaluation of problem areas by management when a case or cases
                     are not in compliance with those criteria.




                                          A-4

